 

WAIVER

SUPREME COURT OF THE UNITED STATES

Supreme Court Case No.20-5506 0
Rodolfo A. Lopez, Jr. y, Indiana
(Petitioner) (Respondent)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check one of the following boxes:

( Please enter my appearance as Counsel of Record for all respondents.

(There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

 

I certify that I am a member of the Bar of the Supreme Court of the United States (Please explain if
your name has changed since your admission):

Signature Staaten 4. Creason Jeg
ine Sycten kur, 24, 2020

Stephen R. Creason
@ Mr. O Ms. Oj Mrs. O Miss
Office of the Attorney General

 

 

(Type or print) Name

 

Firm

 

‘Address_Indiana Government Center South, 302 W. Washington Street, Fifth Floor
City & State Indianapolis, IN Zip 46204

Phone 317-232-6222

A COPY OF THIS FORM MUST BE SENT TO PETITIONER’S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

SEE REVERSE FOR INFORMATION CONCERNING THE STATUS OF A CASE ON THE
DOCKET.

CC: Rodolfo A. Lopez Jr. 20005511
Orange County Jail 3723 Vision Blvd.
Orlando, FL 32802
